                                  Office of lnspector General
                                 Corporation for National and
                                          Community Service




t   E       FOLLOW-UP
                    ASSESSMENT   OF THE
    4
                      IMPLEMENTATION
           CORPORATION'S              OF
        RECOMMENDATIONS
                     IN THE NATIONAL SERVICE
                  TRUSTREPORT
             OIG REPORTNUMBER  04-10
                 JANUARY 16,2004




                                                COMMUNITY
                                                SERVICEEEZZ




                              Prepared by:

                        Office of Inspector General
              Corporation for National and Community Service
                                   NATIONAL^
                                  COMMUNITY
                                  SERVICE-



                                    January 16, 2004



The Honorable David Eisner
Chief Executive Officer
Corporation for National and Community Service
120 1 New York Avenue, NW.
Washington, DC 20525

Dear Mr. Eisner:

        On July 24, 2003, the Office of Inspector General released its report on the
Corporation's management of the National Service Trust. This report (hereinafter
referred to as the "National Service Trust report") made five recommendations to
improve the Corporation's monitoring of AineriCorps member enrollment. This letter
presents the results of our follow-up assessment of the Corporation's implementation of
recommendations in the National Service Trust report.

       Recon~mendationsin the National Service Trtist Report

        This follow-up assessment summarizes the recommendations made in the
National Service Trtlst report and provides an update on the status of the Corporation's
efforts to implement these recommendations.

   a. The Office of Inspector General recommends that only qualified Trust
      personnel be allowed to make Trust liability projections and have input on
      Trust budgetary decisions.

              Our assessment determined that qualified Corporation personnel are
       making Trust liability calculations and Trust obligation projections and
       calculations. Personnel from the Office of the Chief Financial Officer are
       responsible for Trust calculations, quarterly reporting to Congress, and recording
       Trust obligations. The employees responsible for Trust liability calculations are
       Ruben Wiley, the National Service Trust Supervisor, and William Anderson, the
       Deputy Chief Financial Officer for Financial Management. The employees
       responsible for Trust budgetary decisions and obligation projections are William
       Anderson and Andrew Kleine, the two Deputy Chief Financial Officers. These
       employees report to Michelle Guillermin, the Chief Financial Officer (CFO), who



                    1201 New York Avcnuc. NCV, Suite 830 a \Vashington. DC 20525
                       202-606-5000 1 Horlme 8OO--t32-8210 * n-\v\\:cncsig.go\.       USA-
                                                                                      Freedom Corps
                        Senior Corps + Amc.rtCorps   t   1-carn a n d Scrve Amcrica    rlic P   ~ ~ . c~,II ~I , , qcur
                                                                                                                   I ~ ,clu~ ~ .
Vational Service Trust Follow-up Assessment 04- 10
.January 16, 2004
Page Two



        oversees their work. The aforementioned employees' education, work experience,
        and positions with the Corporation qualify them to make Trust projections and
        calculations.

              The Corporation            has     complied   with,   and   implemented,   this
        recommendation.

    b. The Office of Inspector General recommends that the Corporation use
       position descriptions and an accurate organizational chart to establish
       i-esponsibility, accountability, and authority for all key Trust positions.

                In the National Service Trust report, the OIG found that position
        descriptions for Trust supervision and operations were not consistent with actual
        duties. leading to this recommendation. The Office of the Chief Financial Officer
        has updated its organizational chart to depict accurate lines of accountability and
        authority for the key Trust positions. In addition. the Office of the Chief
        Financial Officer has implemented two policies that address the OIG's
        recommendation to describe the responsibilities for all key Trust positions. The
        policy entitled "Administrative Control of National Service Trust Funds" sets
        forth responsibilities and procedures to ensure that adequate funds are requested
        for the Trust, and appropriate obligations are made against the Trust. The policy
        entitled "Administrative Control of Funds Policy" prescribes procedures to be
        followed in the execution of the budget. These policies establish essential
        parameters for personnel making fundamental decisions affecting the Trust.
        Additional review will be needed to determine whether the Corporation has
        approved and implemented these policies.

              The Corporation             has    complied   with,   and   implemented,   this
        recommendation.

    c. The Office of Inspector General recommends that the Corporation develop
       an automated, joint method for simultaneously analyzing information in the
       Web Based Reporting System (WBRS) and the System for Programs,
       Agreements, and National Service Participants (eSPAN). This joint method
       s~hould provide real-time reports indicating the impact of changes in
       einrollment on the Trust.

                This recommendation was based on the need for the Corporation to
        improve how it collects enrollnlent information. When the recommendation was
        made, the Corporation used enrollment information to make Trust adjustments.
        Now, however, the Strengthen AmeriCorps Program Act (Pub. L. No. 108-45)
        requires the Corporation to record a Trust obligation when it approves an
        AmeriCorps position.      The approval of an AmeriCorps position occurs
National Service Trust Follow-up Assessment 04-10
January 16,2004
Page Three



        considerably earlier than the time at which AmeriCorps members are enrolled in
        the Trust. Due to this change in recording practices, our recommendation that the
        Corporation should provide real-time reports indicating the impact of changes in
        enrollment on the Trust is no longer urgent.

               Though implementing this recommendation is no longer considered
        urgent, developing an automated system to analyze WBRS and eSPAN
        information is still valuable to the Corporation. To address this recommendation,
        the Corporation has created a plan to synthesize the information in its computer
        systems by upgrading and modifying its eGrants system. On October 29, 2003,
        the Corporation's Chief Information Officer (CIO) issued a draft report entitled
        "Information Technology Review For The Corporation for National and
        Community Service." The draft report focuses on the eGrants1eSPAN system and
        includes suggestions to improve eGrants. The draft report also includes a plan to
        incorporate WBRS into eGrants, which would eliminate the use and maintenance
        of multiple systems. Integrating WBRS into eGrants is scheduled to be
        completed in approximately 24 months.

                The Strengthen AmeriCorps Program Act has alleviated the immediate
        need to implement Recommendation c. in the National Service Trust report.
        Nonetheless, the Office of Inspector General continues to advise the Corporation
        to fully implement this recommendation, because it is expected to result in cost
        savings and will provide more accurate information to management. In an effort
        to address the weaknesses identified in Recommendation c., the Corporation has
        embarked on a time-consuming integration of the Corporation's information
        technology systems. The Office of Inspector General commends this action as a
        strong indication of the Corporation's efforts to comply with Recommendation c.
        However, since the Corporation is not expected to complete the integration of its
        information technology systems for 24 months, the Corporation has not fully
        complied with Recommendation c. at this time.

    d. The Office of Inspector General recommends that automated alerts be
       established within WBRS and eSPAN to warn grants officers, AmeriCorps
       program officers, and Trust employees of potential problems regarding
       enrollment activities. The OIG further recommends that automated
       safeguards be established in all enrollment systems to prevent enrollment
       from exceeding predetermined levels. While WBRS limits over-enrollment
       on a grant-by-grant basis, cumulative enrollment safeguards should be
       programmed into these systems.

               The Corporation has implemented new procedures to prevent over-
        $nrollment. The number of national service positions awarded is now determined
        by the number of positions that can be supported by the Trust.
Uational Service Trust Follow-up Assessment 04-10
January 16,2004
Page Four




                The Corporation's new procedures institute several mechanisms to prevent
        over-enrollment. Prior to awarding a grant, the Chief Financial Officer certifies
        that sufficient funds are available in the Trust to support proposed AmeriCorps
        member positions. When a grant is awarded, the number of slots or positions is
        included in eGrants. The number of positions awarded, by type, is then
        transferred electronically from eGrants into WBRS. In addition to this
        information, WBRS collects reporting data from grantees, including the number
        of slots committed, filled, active, in the third term, exited without award, granted,
        and available. More importantly, grantees can only enroll members up to the
        number of positions awarded in their grant. Corporation management now
        con~pilesbiweekly reports of WBRS data to better track the number of national
        service positions awarded, committed, and enrolled. The new award process and
        the biweekly reports serve as safeguards to ensure that the problem of over-
        enrollment does not recur.

              The Corporation            has    complied   with,   and   implemented,    this
        recommendation.

    e. The Office of Inspector General recommends that the Corporation publish
       formal guidance regarding use of the Service Award Liability model. This
       guidance should describe who should have access to the model, when it
       should be run, where and how to obtain model data, and to whom the
       generated reports should be sent for review.

                Based on the requirements of the Strengthen AmeriCorps Program Act,
        the Corporation now has two models for calculating service award liability. One
        model is used to calculate the service award liability for financial statement
        reporting under the Generally Accepted Accounting Procedures. The second
        model is used to determine the amount of Trust obligations. The Corporation has
        limited employee access to these models. Further, user guides are now available
        fbr each model. These guides describe access to the models, when they should be
        run, where and how to obtain data, and to whom the generated reports should be
        sent for review.

              The Corporation            has    complied   with,   and   implemented,    this
        recommendation.
National Service Trust Follow-up Assessment 04- 10
January 16, 2004
Page Five




Additional Recommendation

       As a result of this assessment, the Office of Inspector General makes the
following additional recommendation:

    aa.    The WBRS should be incorporated into eGrants as soon as possible.

          It is apparent that the Corporation has made essential improvements in its control
of Natidnal Service Trust funds. Because of these improvements, the Office of Inspector
General certifies that the Corporation has complied with, and fully implemented, four of
the five recommendations in the National Service Trust report. As for the fifth
recomm~endation,the Corporation's efforts to implement its multiyear plan to upgrade
eGrants have demonstrated its intention to comply with this recommendation.

          If you have any questions about this assessment, please contact me at extension
390.

                                             Sincerely,



                                         J. Russell George
                                         Inspector General

copy to:
Michelle Guillermin. CFO
